 State of Montana's Administration of the
Fire Management Assistance Grant Program
    for the Missoula/Mineral Fire Zone
                                                                                                            Offce of inspector General
                                                                                                            Offce of Emergency Management Oversight

                                                                                                            U.S. Department of Homeland Security
                                                                                                            300 Frank H. Ogawa Plaza, Ste. 275
                                                                                                            Oakland, California 94612



                                                                                                 Homeland
                                                                                         oo':;"o~'~~;;i\

                                                                                          ,~.. Security

                                                                                         i~"i~1!
                                                                                            . ';i\D ~\.~­




                                                               September 26, 2008

                                                                      Preface

TIie U.S. Depaiiment of 
 Homeland Security (DHS) Offce ofInspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the
Inspector General Act of i 978. This is one of a series of audits, inspections, and special reports
publislied as part of our oversight responsibilities to promote economy, effectiveness, and efficiency
within the department.

The attached report presents the results of the audit of the State of Montana's Administration of the
Fire Management Assistance Grant Program tòr the Missoula/Mineral Fire Zone. We contracted
with the independent public accounting tìrm of 
                Williams, Adley & Company, LLP to perform the
audit. The contract required that Williams, Adley & Company, LLP perform its audit according to
generally accepted government auditing standards and guidance fi'om the Robert T. Stafford Disaster
Relief and Emergency Assistance Act, Title 44 of 
               the Code of 
 Federal Regulations, and the Offcc of
Management and Budget. Williams, Adley & Company, LLP reported two areas in which the State
of  Montana's administration of                  the Fire Management Assistance Grant Program could be improved.
The repoii contains five recommendations addressed to the Regional Administrator, Federal
Emergency Management Agency, Region VIII.

Williams, Adley & Company, LLP is responsible for the attached auditor's report dated August 29,
2008, and the conclusions expressed in the report. The recommendations herein have been discussed
in draft with those responsible for implementation. It is our hope that this repoii will result in more
effective, efficient, and economical operations. We express our appreciation to all of
                                                                                                                                those who
contributed to the preparation oftliis report.


                                                                      (\ ¡) jl..oo¡ ~ /J-­
                                                                      I.. cl.,,;.;Y on o. 0 " (J0'j/( ¿ /Il'~

                                                                      . ./ J ( . I. '" wr " \.'

                                                                     Robeii .I. Lislrico
                                                                     Westem Regional Director
     ~; V"'. 7'    . ...
             ~~:.~~~~~,..J:?~~'y_."
                .,.,                ~5~~P~?)l :.',IY





August 29,2008


Western Regional Director
        Emergency Management Oversight
Office of 


Office of 
    Jnspector General
U.S. Department of 
           Homeland Security
300 Frank H. Ogawa Plaza, Ste. 275
Oakland, CA 94612

Williams, Adley & Company, LLP perfOlmed an audit ofthc State of 

                                                                                       Montana's management of
the Federal Emergency Management Ageney's funds awarded under the Fire Management
Assistance Grant Program. The audit was performed in accordance with our Task Order TPD­
ARC-BPA-07-0014 dated September 27,2007.

This repoit presents the results of the audit and includes recommendations to help improve
management of ihe audited Fire Management Assistance Grant Program.

Our audit was conducted in accordance with applicable Government Auditing Standards, July
2007 revision. Although the audit report comments on costs claimed by the State of 

                                                                                        Montana,
we did not perform a financial audit, the purpose of.which would be to render an opinion on the
State oflvlontana' s financial statements or the funds claimed in the financial Status Reports
submitted to the federal Emergency Management Agency.

We appreciate the opportunity to have conducted this audit. Should you have any questions, or if
we can be of fiither assistance, please call me on (202) 371- i 397,



Sincerely,

Williams, Adley & Company, LLP


Charbet Duckett
Partner




12S0 H StreRt I\lW. SuitE í 150 W8shington DC 70005 !:;()7) Till::,!.;'; fax (20Ti 3~",r;~i;i
Table of Contents/Abbreviations

Executive Summary................ ...... ............ ...... .................. ...... ........... ... ........ ......... .............. .......... 1


Background....... .... ...... ............. ....... .......... ... ........ .......... ..... ................. ........ .... ........ ...... ...... ...... .... 2


Results of Audit......... ................... ... ..... .... ......... ....... ......... .................. ............. '" .... ...... ................ 3


      Project Worksheets Supporting Documentation . ......................... ............... ...................... ....... 3

      Compliance with FMAG Program RequIrements.....................................................................6


Appendices


      Appendix A:                Objectives, Scope, and Methodology. ........... ...... ................. ..................... ... 10

                                                                                                                                                                     ~ :





Abbreviations

     CFR                Code of 
       Federal Regulations
     DHS                U.S. Department of               Homeland Sccurity

     DNRC               Department of  Natural Resources and Conservation

     FEMA               Federal Emergency Management Agency

     FMAG               Fire Management Assistance Grant

     GAR                Governor's Authorized Representative

     OIG                Office of Inspector General

     PW                 Project W orkshect

Executive Summary
                  Wiliams, Adley & Company, LLP audited the State of 
    Montana's (the
                                            the Fire Management Assistance Grant (FMAG)
                  state's) administration of 


                  Program for the Missoula/Mineral Fire Zone (FMAG Declaration 2490). The
                  objective of the audit was to determine whether the state administered the
                  FMAG Program in an efficient and effective manner. To accomplish the
                  objective, we considered the overall impact of material deficiencies on grant
                  program administration. Specifically, we determined how well thc state
                  (1) coordinated and communicated with the Federal Emergency Management
                  Ageney (FEMA) and sub 
  grant applicants, (2) ensured compliance with federal
                  laws and FEMA guidelines, and (3) accounted for and expended FMAG
                  Program funds. See Appendix A for additional details on the objectives,
                  scope and scope limitations, and methodology of this audit.

                  On November 7,2003, FEMA Region VII awarded $30,550,994 under
                  FMAG Declaration 2490 to the State of      Montana Department of    Natural
                  Resources and Conservation (DNRC), Forestry Division. FEMA
                  programmatically closed this declaration on September 26, 2006. The scope
                  of this engagement was limited to an audit of $3.5 million in reimbursement
                  costs and a financial audit of those costs was not performed. As such, we do
                  not express an opinion on the state's financial statements or the funds claimed
                  in the financial status reports submitted to FEMA.

                  The limited audit scope prevented us from detennining if DNRC administered
                  the program effectively and efficiently. However, DNRC did not always
                  comply with federal laws and FEMA guidelines. Specifically, the state did
                  not support $ 1 ,299,573 in costs claimed and did not complete the grant
                  applieation cOlTectly. Also, the state's grant application was incomplete, time
                  extension requests and administrative and other costs were submitted beyond
                  allowable timeframes, and federal cash transactions reports were late.

                  We recommend that the Regional Administrator, FEMA Region VII:
                  (1) review the alternative procedures used to support costs claimed,
                  (2) disallow unsupported costs of $1,299,573 if not deterrnincd to be
                  reasonable, allowable or allocable, (3) require the grantee to comply with
                  record retention regulations, (4) provide additional training to the state on the
                  proper completion of 
 the FMAG application, FMAG grant submission, and
                  cash transaction reporting requirements, and (5) work with the state to update
                  and revise FMAG related procedures.

                  We held an exit conference with FEMA Region VIJ and the State of Montana
                  DNRC on August 13,2008. FEMA and the state concurred with our findings
                  but did not concur with the recommendations. A synopsis of             the verbal
                  comments we received is includecl in the Results of Audit section of          this
                  report.

       State of Montana's Administration of the Fire M anagemciit Assistance Grant Program
                               for the Missoula/Mineral Fire Zone

                                                             Page 1

                                                                                                                         'i
                                                                                                                       ~:i




                                                                                                                       ¡:.1
                                                                                                                       t..'1
                                                                                                                       1.1
                                                                                                                       . .,
                                                                                                                       r.i
                                                                                                                       '1
                                                                                                                       f:
Background                                                                                                             I~
                                                                                                                       1:1


                         The Robert T. Stafford Disaster Relief and Emergency Assistance Act,
                         (Stafford Act), signed into law November 23, 1988, authorizes the President
                         to provide federal funds to state and local governments under the FMAG
                         Program for mitigation, management, and control of any fire burning on public
                         or private forestland or grassland. The FMAG Program replaced the Fire
                         Suppression Assistance Program on October 30, 2001. Title 44, Code of
                         Federal Regulations (44 CFR), Part 204 provides procedures for the
                         declaration and grants managemcnt processes for the FMAG Program and
                         details applicant eligibility and the eligibility of costs to be considered under
                         the program.
                                                                                                                       f:
                         Declaration Process
                                                                          i:
                                                                                                                       I
                                                                                                                       I.
                                                                                                                       , .

                         A declaration request must be 
 submitted while a fire is burning uncontrolled                : ;

                         and threatens such destruction as would constitute a major disaster. The
                         Governor or the Governor's Authorized Representative (GAR) is authorized to
                         submit requests to the FEMA Regional Administrator or Regional Fire Duty
                         Liaison for fire management declarations. Due to the magnitude and impact of
                         a fire, the Governor or GAR can expedite the process by verbally requesting
                         the declaration but must follow-up promptly after the date of an initial
                         telephone request with all official forms and written information.

                         Upon declaration approval by FEMA, thc Governor or GAR wil enter into a
                         standing FEMAlState Agreement (the Agreement) for the declared fire and for
                         future declared fires in that calendar year. i The state must have a CUlTent and
                         signed Agreement before receiving fedcral funding under the FMAG
                         Program. The Agreement states the understandings, commitments, and
                         conditions under which FEMA will provide federal assistance, including the
                         75% federal and 25% non-federal cost share provision and aiiicles of agreement
                         necessary íòr the administration of thc grants. The Agreement must identify
                         the state legislative authority for firefighting, as well as the state's compJjance
                         with the laws, rcgulations, and other provisions applicable to the FMAG
                         Program.

                         Grant Application 
               and Reimbursement Process

                         Following a declaration, the state is requircd to submit a grant application
                         package to the FEMA Regional AdmÜiistrator within 9 months of the
                         declaration. The Rcgiona1 Administrator may grant an extension of              up to
                         3 months, upon receipt of a written request from the state that includes the

i The State of ¡"'lantana executes the Agreement with FE'VIA at the beginning of each calendar year so that the
Agreement is in place before the start of the lÏre season. An amendment to the Agreement (Exhibit E) is executed for
each FMAG declaration occurring during the year.

             State of Montana's Administration of the Fire :\'lanagement Assistance Grant Program

                                     for the Missoula/Mineral Fire Zone


                                                                    Page 2

                           justification for an extension. The grantee must document the total eligible
                           costs for a declared fire on project worksheets (PWs), which are submitted
                           with the grant application. The Regional Administrator has 45 days from the
                           receipt of the state's initial grant application, or an amendment to the state's
                           grant application, to approve or deny the application package or amendment
                           or to notify the state of a delay.



                           By submitting PWs, the grantee certifies that all reported costs were incurred
                           for work that was performed in compliance with laws, federal regulations, and
                           FMAG Program policy and guidance, as well as the terms and conditions
                           outlined in the FMAG Program FEMA/State Agreement. Upon approval of
                           the grant application, FEMA obligates funds after determining that: (1) the
                           state's eligible eosts meet or exceed the individual or cumulative fire cost
                           thresholds, and (2) the state has up-to-date State Administrative and Hazard
                           Mitigation Plans approved by the Regional Administrator.

                           Sub   grantee requests for FMAG Program funding are submitted on a Request
                           for Fire Management Assistance Subgrant (FEMA FODn 90-133) to the grantee
                           according to state procedures and within timelines set by the grantee, but no
                           later than 30 days after the close of 
 the incident period. The grantee will
                           review and forward thc request to the Regional Administrator for final review
                           and determination.


Results of Audit
                           We could not detemiine ifDNRC administered the FMAG Program in an
                           efficient and effective manner becausc of 
                the limited scopc.2 Specifically, our
                           task order required us to review PWs valued at no more than $3.5 million
                           whereas the total grant award was $30.5 million. Although DNRC properly
                           coordinated fire management activities and communicated with FEMA, we
                           concluded that DNRC did not account for and maintain adequate
                           documentation to support $1,299,573 of the $3.5 millon in FMAG program
                           expenditures. DNRC also did not always eomply with federal                      laws and FEMA
                           guidelines as reported in the following exceptions.

         Project Worksheets Supporting Documentation

                           DNRC did not maintain supporting documentation for $ 1,299,573 in costs
                           claimed. Specifically, DNRC could not produce documentation to:

                           .    Verify contract costs, equipment costs, and materials costs,



2 See Appendix A for details regarding the limited scope of this audit.

              State of Montana's Administration of the Fir!:!V anagement Assistance Grant Program
                                      for the Missoula/Mineral Fire Zone

                                                              Page 3

           .     Support United States Forest Service and Bureau of 
      Land Management
                 costs,

           . Match job positions/position descriptions on timesheets with hourly pay
                 rates, and in some instances, timesheets were missing, and

           . Determine the eligibility of$647 in repair costs that were incurred prior to
                 the incident period.



           Title 44, Code of 
        Federal Regulations, Section 13.42(a) (44 CFR 13.42(a)),
           Retention and Access Requirementsfor Records, provides guidance on rceords
           retention of grant documentation applieable to all finaneial and programmatic
           reeords, supporting documents, statistical records, and other records of
           grantees or sub 
 grantees, which are: (i) required to be maintained by the terms
           of this part, program regulations or the grant agreement, or (ii) otherwise
           reasonably considered as pertinent to program regulations or the grant
           agreement. According to 44 CFR 13.42(b) and (c), Length o.!retention period
                             reTention period, except as otherwise provided, records
           and Starting date of 


           must be retained for 3 years from the date the grantee submits its final
           expenditure report; or if any litigation, claim, negotiation, audit or other action
           involving the records has been started before the expiration of 
 the 3 year
          . period, the records must be retained until completion of       the action.



           According to 44 CFR 13 .20(b)( 6), grantees and subgrantees are required to
           support accounting records with source documentation such as cancelled
           checks, paid bils, payrolls, time and attendance records, contract and sub 

                                                                                        grant
           award documents, etc.

           The cooperative fire management agreement between the DNRC and the
           Bureau of Land Management, National Park Serviee, Bureau of Indian
           Affairs, United States Fish and Wildlife Service, and the United States Forest
           Service that was in effect during the incident period included provisions for
           support documentation requirements. Paragraph 60 of the agreement states,
           "In accordance with applicable State and Federal rules and regulations,
           agencies will furnish to each other, or otherwise make available upon request,
           such maps, documents, GIS data, instructions, records, and reports including,
           but not limited to, fire reports, time reports, and investigation and law
           enforcement repoiis as either party considers necessary in connection with the
           Agreement. "

                                             the Missoula/Mineral Fire Zone, DNRC
           Due to the complexity and size of 


           relied heavily upon the United States Forest Service, Bureau of Land
           Management, and Bureau of Indian Affairs for fire fighting personnel,
           equipment, and materials. The state experienced extreme diffculty in
           obtaining proper supporting documentation from these entities and had to file
           a Freedom of Information Act request to obtain documentation from the

State of Montiina's Administration of the Fire Management Assistance Grant Program
                        for the Missoula/Mineral Fire Zone

                                                      Page 4

           United States Forest Service. Nonetheless, the documentation that DNRC
           received was insufficient. DNRC was unable to provide documentation to
           support that they had received approval from FEMA Region VII for these
           expenditures despite this deficiency. FEMA Region VII grant fies included
           a request from DNRC and approval of alternative procedures related to the
           support documentation review requirements. However, no evidence was
           presented that the approved alternative procedures were audited or reviewed
           to determine the reliability or accuracy of 
                    the alternative procedures or
           whether the alternative procedures set aside the tenns and conditions of                       the
           cooperative fire management agreement between the DNRC and the federal
           agencies providing fire management assistance.

   Recommendations
           We recommend that the Regional Administrator, FEMA Region VII:

           Recommendation #1. Review the alternative procedures related to support
           doeumentation requirements to deteimine if 
 the procedures reasonably
           ensured that costs claimed were reasonable, allowable, and allocable.

           Recommendation #2. Disallow unsupported costs totaling $ 1,299,573, if not
           determined to be reasonable, allowable, and allocable.

           Recommendation #3. Require the grantee to comply with FMAG regulations
           that pertain to records retention of suppoiiing documentation.

   1\1anagement Comments and Auditor's Analysis
           FEMA and DNRC verbally concurred that some cost components may not
           have detailed supporting documentation such as payroll timesheets. However,
           extenuating circumstances beyond the DNRC's control impacted its ability to
           fully comply with the requirements. For example, DNRC has limited
           enforcement tools to require federal agencies such as the United States Forest
           Service, Bureau of Land Management, or Bureau of Indian Affairs to provide
           detailed cost information. Furthennore, FEMA has determined that federal
           entities, such as United States Forest Service, should be considered
           contractors to the grantee, and therefore, supporting documentation
           requirements should be limited to the invoices submitted by the contractor.

           The auditors agree that the DNRC attempted to obtain supporting
           documentation from its federal partners to comply with the FMAG
           documentation requirements and that DNRC requested assistance from FEMA
           in its attempts to comply with the documentation requirements. Although
           FEMA may have detemiined that the federal entities in question wcre
           contractors, and therefore, not bound by the documcntation requirements
           imposed upon grantees and sub-grantees. an existing agreement bet\veen

State or Montana's Administration of the Fire Maiiagenllnt Assistance Grant Program
                        for the Missoula/Mineral Fire Zone

                                               Page 5

              DNRC and its federal partners stipulated compliance with the grant
              documentation requirements. As such, DNRC should have enforced
              compliance with the agreement that it had in effect when the fire related
              services were provided. The FEMA determination that the fèderal entities
              were contractors does not supersede the contractual arrangement between
              DNRC and the federal entities or with FMAG guidance that requires
              supporting documentation. Neither FEMA nor state officials commented at
              this time in regards to conducting an independent audit or review.

Compliance with Fl\1AG Program Requirements

             DNRC needs to fully comply with grant application, financial reporting, and
             accounting policies and procedures requirements. Specifically:

              · The performance ending date on the grant application was blank;

             · PWs were not submitted with the grant application;

             · Multiple written time extension requests for submission of PWs were            ! ;

                submitted for approval although only one time extension request is
                 permitted under the applicable regulations;

             .   Eight of 1 1 federal cash transaction repoiis (SF-272s) were not submittcd
                 in the timeframes required by grant regulations; and

             .   PWs wcre submitted for reimbursement after the allowable and approved
                 deadlines.

             The regulatory requirements regarding grant application, fìnancial reporting,
             and accounting policies and procedures are referenced in the agreement
             between FEMA and the state and are detailed below:

             The perfoiinance period is defined in 44 CFR 204.3 as, "The time interval
             designated in block 13 on the Application for Federal Assistance (Standard
             Form 424) for the Grantee and all subgrantees to submit eligiblc costs and
             have those costs processed, obligated, and closed out by FEMA." According
             to 44 CFR 204.64, "Within 90-days of 
 the Performance Period expiration
             date, thc State will submit a fìna1 Financial Status Report (FEMA Form
             20- 10), which reports all costs incurred within the incident period and all
             administrative costs incurred within the performance period."

             According to 44 CFR 204.51 (a)(2), "The State should submit its grant
             application within 9 months of the declaration. Upon receipt of the writtcn
             request from thc State, the Regional Director (cunently, the Regional
             Administrator) may grant an extension for up to 3 months. The State's request
             miist include a justifìcation for the extension." In addition, according to

  State of Montana's Administration of the Fire Management Assistance Grant Program

                          for the Missoula/Mineral Fire Zone


                                           Page 6

           44 CFR 204.51 (b)(4), "States must document the total eligible costs for a
           declared fire on PWs, whieh they must submit with the grant application."

           Under 44 CFR 1 3.20(a), the state must expend and account for grant funds
           according to state laws and procedures for expending and accounting for its
           own funds. Fiscal control and accounting procedures of 
   the state, as well as
           its subgrantees and cost-type contractors, must be sufficient to: (1) permit
           preparation of reports required by this part and the statutes authorizing the
           grant, and (2) permit the tracing of funds to a level of expenditures adequate
           to establish that such funds have not been used in violation of the restrietions
           and prohibitions of applicable statutes. In addition, 44 CFR 13 .20(b )(3)
           indicates that effective control and aecountability must be maintained for all
           grant and sub 
 grant cash, real and personal property, and other assets.

           The federal cash transaction reporting requirements specified in 44 CFR
           13.41    (c)(l) requirc the grantee 
 to submit the Standard Form 272, Federal Cash
           Transactions Report, and when necessary, its continuation sheet, Standard
           Form 272a, unless the terms of 
       the award exempt the grantee from this
                                                                                                    i;
           requircment. Also, 44 CFR 13.41 

                                                    (c)(4) requires grantees to submit the report
           no later than 15 working days following the end of each quarter.

           DNRC was generally not awarc of 
            how to complete the grant application
           form. Furthennore, according to FEMA, the program was new and the state
           was not fully aware of 
          the submission requirements. According to the DNRC,
           the state experienced an exceptionally active fire season in 2003 that depleted
           its resources and the Missoula/Mincral Fire Zone was a very large and
           complcx fire. As such, DNRC experienced an extraordinary administrative
           burden to compile, calculate, and determine fire management costs within the
           time limits imposed by the FMAG program. Also, because the DNRC was
           having difficulty obtaining supporting documentation from other entities,
           including the United States Forest Service and Bureau of Land Management,
           additional extensions were requested and granted for reasonable cause based
           on guidance provided by the FEMA Recovery Division.

           Because FEMA Region VII accepted the incomplete application, it could not
           establish a date for submission of the final financial status report -- generally,
           90 days aftcr the expiration of 
 the perfonnance pei;ocl. FEMA did not receive
           the final PW from the grantec until March 2, 2006, or 2 Vi years after the
           incident pei;od ended. As a result of the submission deficiencies, FEMA
           could have denied acceptance of some fire management costs because they
           were submitted beyond all approved and allowable time extension periods or
           denied all costs since PWs were not submitted with the b'Tant application, or
           an amended grant application, as required.

           Because quarterly tìnancial cash transaction reports were not submitted in a
           timely manner, FEMA has no assurance that the grantee properly monitored

State of Montana's Administration of the Fire Management Assistance Grant Program
                        for the Missoula/Mineral Fire Zone

                                         Page 7

                                                                                             ¡~
                                                                                              :.1
                                                                                               ~!
                                                                                               ;¡
                                                                                              1
                                                                                               :1

                                                                                               ~
                                                                                             i!
           or expended grant funds within the pedormance period. Further, because            ',i

           FMAG procedures are not periodically updated, new employees wil not have            1

           suffcient knowledge or information to properly proeess FMAG funds or
           report on the use of sueh fuds. Reviews and revisions of written procedures
           wil enable effective and effieient controls over accounting and financial
           reporting processes.

   Recommendations
           We reeommend that the Regional Administrator, FEMA Region VII:

           Recommendation #4. Train the state on:

           .1 The FMAG application process to ensure that the grant application forms
               are completed aceording to FMAG Program regulations. Future
               incomplete applications should be returned to the state.

           Ql How to request time extensions and submit PWs to ensure that the state
              meets FMAG Program requirements.

           9 Grant requirements for quarterly submission of cash transaction reports.

           Recommendation #5. Work with the state to review and update written
           policies and procedures pertaining to funds management and financial
           repoiiing to ensure compliance with FMAG Program reporting regulations.

   Management Comments

           FEMA Region VII and DNRC officials verbally concun-ed that the grantcc
           was not in strict compliance with the regulations. However, the grantee said it
           could not and cannot comply with the regulations because the grant
           requirements do not fit real time situations. FEMA Regional personnel
           suggested amendments to the FMAG regulations such that they reflect the
           performance realities of this fire program. FEMA and state officials made the
           following specific comments as they relate to these issues:

           · DNRC said it was not possible to determine the perfonnance ending date
              when the application was submitted, although it was required to do so by
              44 CFR, Subpart D -Application Procedures. FEMA Region vii
              otÌcials said they agreed with DNRC, and in the future, it will instruct its
              grantees to insert a comment that the perfOl1ianCe period will be
              detennined at close out as a standard practice.

           · Both DNRC and FEMA Region \fIl officials said it is unrealistic to
               compile and prepare the PWs within the regulatory timeIìame for


State of Montana's Administration of the Fire "lanagemcnt Assistance Graiit Program
                        for the Missoula/Mineral Fire Zone

                                          Page R

               submission of 
 the grant application. DNRC and FEMA Region VII

               offcials said the regulations should be changed to allow for separate

               submission ofPWs.


           · FEMA Region VII officials said they coordinated time extensions
               requests with FEMA headquarters and approved them on a case-by-case
               basis. DNRC required the time extensions for the Missoula/Mineral Fire
               Zonc beeause of   the extreme diffculty the state was having in obtaining

               the cost data from federal agencies.


           · The submission deadlines provided for in the regulations could not be met
               in this instance. FEMA regional staff coordinated with 
       headquarters to
               extend the time 
       frame for the Missoula/Mineral Fire Zone FMAG            ¡ :


               submissions.                                                                     t:
                                                                                                ~ :



           · DNRC official said the state's Department of Military Affairs was
              responsible for drawing down funds and preparing the cash transaction
              repoii and DNRC was responsible for grant monitoring. FEMA offcials
              said that better communication and coordination between the Depaiiment
               of   Military Affairs and DNRC would ensure the submission of        the eash
               transaction reports in a timely manner.




State of Montana's Administration of the Fire Management Assistance Grant Program
                        for the Missoula/Mineral Fire Zone

                                                     Page 9

                                                                                                                     PI


Appendix A                                                                                                           l ;j

Objectives, Scope, and Methodology	                                                                                  ri
                                                                                                                     r!
                                                                                                                     t1
                                                                                                                     'i
                                                                                                                     ~!
                                                                                                                     ¡.
                             Objective	                                                                              i'
                                                                                                                          j



                                             the audit was to determine whether the state entity
                             The objective of 


                             administered the FMAG Program in an efficient and effective manner. To
                             accomplish the objective, we considered the overall 	         impact ofmaterial

                             deficiencies on grant program administration. Specifically, we determined how
                             well the state (1) coordinated and communicated with FEMA and sub 
  grant
                             applicants, (2) ensured compliancc with federal laws and FEMA guidelines,
                             and (3) accounted for and expended $3.5 million in judgmentally selected
                             FMAG Program funds.
                                                                                                                     . ,



                             We were not engaged to and did not perform a financial statement audit, the             : ¡



                             objective of which would be to exprcss an opinion on specified elements,	               r;
                             accounts, or items. As such, we were neither required to nor expressed an	              f,
                             opinion on the costs claimed for the grant programs included in the scope of
                             the audit. Had we bcen required and performed additional procedures or
                             conducted an audit of the financial statements according to generally accepted
                             auditing standards other matters might have come to our attention that would
                             have been reported. This report relates only to the programs specified and
                             does not cxtcnd to any financial statements of the state.
                                                                                                                     i


                             Scope

                             We judgmentally selected and audited $3.5 milion in grant funds for the
                             Missoula/Mineral Fire Zone (FMAG Declaration 2490) that was awarded by
                             FEMA to the state based on a grant application dated September 17,2003, and
                             signed on Septembef 26, 2003. The grant, totaling $30,550,993.65, was
                             programmatically closed on September 26, 2006.3 This FEMA grant award
                             was selected for review because the award was significantly higher than other
                             fire declarations within the same FEMA Region. DNRC administered the
                             FMAG Program.

                             We reported a scope limitation in that DHS OIG instructed the auditors to
                             review PWs not to exceed $3.5 million in grant funds. In order to comply
                             with this requirement, the auditors did not use materiality or random sampling
                             techniques to select PWs. Instead, the auditors judgmentally selected four
                             PWs that approximated the required dollar value limitations. This selection
                             methodology precludes extrapolation of 
 the audit findings to the general
                             population of PW s for the grant Of expressing an opinion related to the overall
                             grant funds.




1 FMAG Programs are considered programmatically closed if all work has been completed and final costs submitted to
FEMA have been obligated.

             State or 
   Montana's Administration or the Fire Manageml'iit Assistance Granl Program
                                                  roi. thl' Missoula/Mineral Firl' ZOIll

                                                                        Page 10

                                                                                                              .:1

                                                                                                              ~iJ


Appendix A
Objectives, Scope, and Methodology                                                                            i1
                                                                                                              H
                                                                                                              tj
                      The scope limitation was caused by errors in the initial data base and time             : i

                                                                                                              ;,!

                                                                                                              ,~
                      constraints. Specifically, the initial task order was based on data obtained in
                                                                                                                :!

                      the research phase performed by DHS OIG that showed this FMAG
                      Declaration to be $3.5 milion. When fieldwork began at the state level, the

                      correct amount of$30.5 milion was reported. At that time DHS oiG held

                      discussions with contracting officials who said that a new task order would               ¡


                      have to be issued for the change of scope of work and extending milestones.             ¡ ,



                      Based on the requirement to have all FMAG audits completed by September
                      30,2008, a new task order was not feasible. As a result, DHS OIG elected to
                      have a sample based on $3.5 milion be accomplished.
                                                                                                                I
                                                                                                              , I

                                                                                                                i
                      Methodology                                                                             .I



                      We perfonned fieldwork at FEMA Region VII and DNRC. The state had
                      13 subgrantees under the grant. To obtain an understanding of the grant
                      procedures, we reviewed FEMA regulations, the Stafford Act as amended,
                      pertinent sections of 
         Title 44 of the CFR, and Office of Management and
                      Budget Circular A-87, Cost Principles 
           for State, Local, and Indian Tribal
                      Governments.

                      To achieve the objectives ofthis audit, we:

                      1) Interviewed FEMA and state personnel to obtain an understanding of
                          policies and procedures followed and to identify potential internal control
                          weaknesses and their causes;

                      2) Reviewed grant files to detennine whether sufficient documentation was
                          present to suppoii proper administration of the grant;

                      3) Reviewed the state's internal controls over accounting for grants to ensure
                          that the State properly recorded and reported grant expenditures;

                      4) Revievied a judgmental sample ofPWs totaling $3.5 million to detennine
                          whether grant monies under the selected PWs were spent according to
                          laws and regulations. Our sampling approach was not in conformity with
                          the risk model promulgated by the American Institute of Certified Public
                          Accountants.

                      5) Reviewed prior audit reports to detennine whether deficiencies had been
                          noted in the reports with respect to the state's administration of the FMAG
                          Program or intemal controls over grant fund accounting.

                      We conducted a performance audit by executing tests, conducting interviews,
                      making observations, and examining documentation in the tòl10wing areas:


           State of Montana's Administration of the Fire Management Assistance Grant Program

                                   for the MissolilaiMineral Fire Zone


                                                     Page 1 i
Appendix A
Objectives, Scope, and Methodology

                      t. Applicant Eligibility

                      2. Cost Eligibility

                      3. Procurement

                      4. Grantee's Accounting System and Intemal Controls

                      5. PW Review

                      6. Grant Reporting


                     We conducted our audit between November 2007 and June 2008 and
                     performed our work according to the Government Auditing Standards
                     preseribed by the Comptroller General of 
 the United States (July 2007
                     Revision).




                                                                                               : ~





          State of Montana's Administration of the Fire Management Assistance Grant Program
                                  for the J\lissoliJa/MineraJ Fire Zone

                                                  Page 12

                                                                                            ii



                                                                                           i~
                                                                                             )
                                                                                           ,!
                                                                                           ..,1
                                                                                              ~




Additional Information and Copies
To obtain additional copies of this report, call the Office ofInspector General (OIG) at
(202) 254-4 199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIC Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of ciiminal
or noncriminal misconduct relative to department programs or operations:

    · Call our Hotline at 1-800-323-8603;

    · Fax the complaint directly to us at (202) 254-4292;
    · Email us at DHSOIGHOTLINE(fdhs.gov; or

    · Write to us at:
          DHS Offiee of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
